BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-231
ALADDIN MANUFACTURING CORPORATION,
MOHAWK CARPET, LLC, MOHAWK INDUSTRIES, INC.,
AND SHAW INDUSTRIES, INC.,

Petitioners,
V.

THE WATER WORKS & SEWER BOARD OF THE
TOWN OF CENTRE AND THE WATER WORKS &
SEWER BOARD OF THE CITY OF GADSDEN,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Motion for Leave to File Brief as Amici
Curiae and Brief of the Chamber of Commerce of the
United States of America, the Georgia Chamber of
Commerce, and the National Federation of
Independent Business as Amici Curiae in Support of
Petitioners contains 344 words and 3,575 words,
respectively, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on September 28, 2020.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

w

CJ

DonnaJ.
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

.

\.

